<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES FOR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
 MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES FOR 2016

                              __________                              

                                            Tuesday, March 3, 2015.

    INSTALLATIONS, ENVIRONMENT, ENERGY AND BRAC BUDGET AND OVERSIGHT

                               WITNESSES

JOHN CONGER, PERFORMING THE DUTIES OF ASSISTANT SECRETARY OF DEFENSE, 
    ENERGY, INSTALLATIONS AND ENVIRONMENT
KATHERINE HAMMACK, ASSISTANT SECRETARY OF THE ARMY, INSTALLATIONS, 
    ENERGY AND ENVIRONMENT
DENNIS V. MCGINN, ASSISTANT SECRETARY OF THE NAVY, ENERGY, 
    INSTALLATIONS AND ENVIRONMENT
MIRANDA A. A. BALLENTINE, ASSISTANT SECRETARY OF THE AIR FORCE, 
    (INSTALLATIONS, ENVIRONMENT AND ENERGY)

                       Chairman Opening Statement

    Mr. Dent [presiding]. Good afternoon. I suspect we are 
going to be interrupted by votes, so apologies in advance. But 
again, I just want to thank you all and welcome everyone to 
this afternoon's hearing on Installations, Environment, Energy 
and BRAC for fiscal year 2016.
    We have many questions to address concerning the fiscal 
year 2016 budget request--specifically the impact of the budget 
submission being above Budget Control Act levels, the impact of 
sequestration and how force structures changes will affect the 
military construction budget in fiscal year 2016 and beyond.
    In addition, the Department of Defense has just completed 
an evaluation of installations in Europe--the European 
Infrastructure Consolidation Study. Another high profile issue 
is the European Reassurance Initiative, which our allies are 
clearly very interested in.
    Last, we all have a keen interest in managing our 
facilities better in terms of requirements versus capacity, 
both overseas and in the United States. The panel before us 
today has a lot of answers to these questions, I am sure. 
Before I introduce our witnesses, I would like to turn to the 
ranking member, Mr. Bishop, for any opening remarks he would 
like to make.

                Ranking Member Bishop Opening Statement

    Mr. Bishop. Thank you, Mr. Chairman. I am glad that today 
we are going to be able to talk about the President's fiscal 
year 2016 budget request, that we have the civilian leadership 
here that can explain the priorities of military construction 
in each of the services.
    The individuals before us today have some big issues to 
deal with; you have all dealt with sequestration. And you have 
all dealt with the budget caps that are mandated by the Budget 
Control Act.
    I thought each of your respective services did a tremendous 
job; you did the best you could to function under those caps. 
Each of you elected to invest in critical infrastructure for 
the war-fighter over quality of life facilities. In fact, 
during this time we basically saw quality of life projects 
disappear, as you were all forced to choose one need over the 
other.
    So when I saw the fiscal year budget 2016, I was pleased to 
see a healthy budget for military construction, one that 
invests in all the aspects of the department's needs.
    Mr. Chairman, we can't continue to let the budget caps 
continue in perpetuity and continue to neglect important 
investments. It is my hope that we can deal with this in a very 
bi-partisan fashion to lift the caps and put an end to 
sequestration.
    Changing gears to another subject, of equal import, is the 
department's request to conduct another round of BRAC. In 2005, 
Congress authorized a BRAC that ended up being far more 
expensive and expansive than we had been led to believe.
    I understand in 2004 it was known that the department had 
24 percent excess capacity, but during the 2005 BRAC round 
Defense only made reductions of 3.4 percent. I understand that 
the 2005 BRAC was a reshaping BRAC, but a lot of money was 
spent to move things around, and mostly moving around important 
people.
    So I have some concerns regarding another round of BRAC, 
but I also have concerns about maintaining infrastructure that 
we don't need.
    So, Mr. Chairman, I realize that these are some very 
difficult issues for all the members of Congress and I am glad 
for today's hearing so we can discuss them openly, and I look 
forward to a very vigorous discussion. I thank you for the 
opportunity, and I yield back.
    Mr. Dent. Thank you, Mr. Bishop.
    And at this time I would like to now introduce our 
witnesses, starting from my right: The Honorable John Conger, 
who is performing the duties of Assistant Secretary of Defense 
for Energy, Installations, and Environment; the Honorable 
Katherine Hammack, Assistant Secretary of the Army for 
Installations, Energy, and Environment; the Honorable Dennis 
McGinn, Assistant Secretary of the Navy for Energy, 
Installations, and Environment; and the Honorable Ms. Miranda 
Ballentine, Assistant Secretary of the Air Force for 
Installations, Environment, and Energy.

                        Statement of Mr. Conger

    Thank you, again, for taking the time to be here with us 
and sharing your perspectives and expertise. And without 
objection, your written statements will be entered into the 
official record.
    Due to the number of witnesses, I would ask that each of 
you summarize your statement in about 5 minutes so that we can 
maximize the time for dialogue between the panel and the 
subcommittee members.
    So with that, Secretary Conger.
    Mr. Conger. Thank you.
    Chairman Dent, Ranking Member Bishop, distinguished members 
of the subcommittee, I appreciate the opportunity to discuss 
the department's fiscal year 2016 budget request for energy, 
installations, and environment. My written statement addresses 
the budget request in detail, so instead of summarizing it, I 
would like to raise two topics for you to consider as we enter 
today's discussion.
    First, we cannot contemplate the budget request without 
considering the context of the Budget Control Act caps. The 
department submitted a budget request that was $35 billion 
higher than the caps and $38 billion higher than last year. 
Forcing us to adhere to the caps would have reverberations 
across the budget.
    The President's budget request includes a significant 
increase for facilities over last year's request--nearly $2 
billion in MILCON and $2.5 billion in facility sustainment and 
recapitalization. Legislation will be required to provide 
relief from the Budget Control Act caps, like the relief 
provided by the Bipartisan Budget Act 2 years ago. If you must 
adhere to the BCA caps, Congress will have to cut that $35 
billion from this request, and it will certainly have to 
consider cutting funds from the request for facilities.
    Second, it should be no surprise that we are again 
requesting authority to conduct a BRAC round. While I recognize 
the authority is not the purview of this committee per se, your 
jurisdiction is intertwined with it and your voice is highly 
relevant to that decision.
    As we deal with this constrained budget environment with 
considerable force structure decreases since 2005, we must look 
for ways to divest excess bases and to reduce the cost of 
supporting our smaller force structure.
    A few key points in support of our request for BRAC: The 
Army and the Air Force have done analyses indicating that 18 
and 30 percent excess capacity already exists, and I will note 
that the Army analysis is based on a number of 490,000 
soldiers, not the projected 450,000. This aligns with our 
prediction, based on the analysis performed in 2004, that we do 
have excess capacity in the department and there is 
justification to do a BRAC round.
    Second, partially in response to Congress' urging, we 
conducted a BRAC-like review of European facilities and bases. 
It was delivered to Congress in January 2015, and we project 
that it will save more than $500 million annually once 
implemented.
    Third, in this budget environment a new round of BRAC must 
be focused on efficiencies and savings. I know that BRAC 2005 
was unpopular, but the recommendations from that round were not 
all designed to save money, and that is what drove up the cost.
    We actually did an analysis where we ascertained that 
roughly half of the recommendations from the BRAC 2005 round 
were not projected, even from the outset, to save money within 
the first 7 years after implementation. Many of them weren't 
projected to actually have recurring savings.
    But the half that were--the half of the recommendations 
that were projected to save money, that were intended to save 
money, only cost $6 billion out of the $35 billion cost of the 
BRAC round. It was a much--a very small percentage of the 
overall cost, and those recommendations represent $3 billion in 
recurring savings.
    So once again, just like the rounds of BRAC in the 1990s, 
when we want to save money with BRAC recommendations, we do.
    The new issue that I have heard raised recently is that we 
cannot expect Congress to pass our legislative proposal for a 
new BRAC round because it mirrors the BRAC 2005 legislation 
and, once again, that particular round was unpopular. I 
understand the reality that no matter how many times the 
administration asserts that a future BRAC round will be about 
cost savings, Congress may want more than just our assurance.
    Let me be clear: We are open to a discussion on this point, 
and I would like to solicit your suggestions for specific 
changes in the BRAC legislation that would make it more 
acceptable. We want to have that conversation.
    Thanks again for the opportunity to testify, and I look 
forward to your questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        Statement of Ms. Hammack

    Mr. Dent. Ms. Hammack.
    Ms. Hammack. Chairman Dent, Ranking Member Bishop, and 
other members of the committee, thank you for the opportunity 
to discuss the Army's 2016 military construction budget.
    The velocity of instability in the world has increased. The 
Army is now operating on multiple continents simultaneously in 
ways unforeseen a year ago. And although we believe we can meet 
the primary missions of the defense strategic guidance today, 
our ability to do so has become tenuous.
    Fiscal challenges brought on by the Budget Control Act 
strain our ability to bring into balance readiness, 
modernization, and end strength. And even as demand for Army 
forces is growing, budget cuts are forcing us to reduce end 
strength and base support to dangerously low levels.
    We face a mismatch between requirements and resources 
available.
    Although in 2016 the Army is asking for a 26 percent 
increase from 2015 for military construction, family housing, 
and base closure activities, our $1.6 billion request is a 33 
percent reduction from fiscal year 2014 and a 55 percent 
reduction from fiscal year 2013.
    And while the Army energy programs have reduced energy 
consumption by 17 percent over the last 10 years, our costs 
have gone up more than 45 percent. Dedicated efforts over the 
last 3 years have produced some leveling off of costs.
    We executed $320 million in energy-saving performance 
contracting projects last year through partnering with the 
private sector. And the Army's program is a model for many 
federal agencies.
    Also working with the private sector partners, we have over 
400 megawatts of renewable energy projects under development. 
All of these projects generate power on Army installations at 
or below the cost of conventional energy.
    But we know as force structure declines we must right-size 
our supporting infrastructure. We must achieve a balance 
between the cost of sustaining infrastructure and Army 
readiness.
    Degraded readiness makes it more difficult for us to 
provide for the common defense. The BCA increases risk for 
sending insufficiently trained and under-equipped soldiers into 
harm's way, and that is not a risk our nation should accept.
    We need a round of base closure and realignment in 2017. 
Without a BRAC and the realized cost savings, the only 
alternative is to make up for shortages in base funding by 
increasing risk in readiness.
    As Mr. Conger mentioned, we conducted a facility capacity 
analysis based on our 2013 audited real property and determined 
excess capacity will be 18 percent when we reach a force of 
490,000. As we shrink further, to a force of 450,000, more 
excess capacity is created.
    We must size and shape Army facilities for the forces we 
support.
    The European Infrastructure Consolidation review addressed 
excess capacity in Europe. For the Army, an investment of $363 
million results in annual savings of $163 million, which is 
less than a 3-year payback.
    We are now facing critical decisions which will impact our 
capability and capacity for the next decade. It is important 
that we make the right decisions now. Without the savings from 
a BRAC round, the risk is that our installations will 
experience larger cuts than would otherwise occur.
    We look forward to working with Congress to ensure the Army 
is capable of fulfilling its many missions. So on behalf of the 
soldiers, families, and civilians, and the best Army in the 
world, thank you for the opportunity to discuss the Army's 2016 
needs, and I look forward to your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        Statement of Mr. McGinn

    Mr. Dent. Thank you. Mr. McGinn.
    Mr. McGinn. Chairman Dent, Ranking Member Bishop, members 
of the committee, thank you for the opportunity to appear 
before the committee today to provide an overview of the 
Department of the Navy's investment in shore infrastructure and 
shore readiness.
    But as I begin, I want to inform the subcommittee that the 
restoration of the Naval Sea Systems Command headquarters 
building at the Washington Navy Yard, supported last year by 
your very swift reprogramming approval, is complete and staff 
began returning on the 2nd of February.
    The speed and quality of the renovation and the support by 
all involved, especially the Congress and this committee, has 
allowed the Naval Sea Systems Command team to continue their 
important mission while caring for their employees through this 
difficult time.
    Thank you. We are recovering, we are resilient, but we will 
not forget.
    World events of 2014 demonstrate the complex and 
unpredictable nature of our times. From the rise of the Islamic 
State, an emboldened Russian Federation, the outbreak of the 
Ebola virus in Africa, the Navy and Marine Corps team has been 
on station forward as America's first responders, operating 
around the clock and around the world. Our installations 
provide the backbone of support for our maritime forces that 
enable our forward presence.
    Our nation's Navy and Marine Corps team must have the 
ability to sustain and project power, effect deterrence, and 
provide humanitarian assistance and disaster relief whenever, 
wherever, and for however long needed to protect the national 
security interests of the United States. Yet, fiscal 
constraints introduce additional complexity and challenges as 
our department strives to strike the right balance between 
resources, risk, and strategy.
    The President's budget for fiscal year 2016 requests $13.3 
billion to operate, maintain, and recapitalize our shore 
infrastructure and readiness. This is an increase of $1.5 
billion from the amounts that were appropriated in fiscal year 
2015, but still remains below the DOD goal for facility 
sustainment.
    On the question of risk and reduced investment, we are 
funding the sustainment, restoration, and modernization of our 
facilities at a level that arrests the immediate decline in the 
overall condition of our most critical infrastructure. By 
deferring less critical repairs, however, especially for 
noncritical facilities, we do acknowledge that we are allowing 
certain facilities to degrade.
    However, this budget has us headed back in the right 
direction, clearly. Last year's budget risks, if continued into 
the future, would have led to rapid degradation of overall 
shore establishment readiness.
    I look forward to working with you to sustain the 
warfighting readiness of our Navy and Marine Corps team and 
look forward to answering your questions. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Statement of Ms. Ballentine

    Mr. Dent. Thank you. Ms. Ballentine.
    Ms. Ballentine. Chairman Dent, Ranking Member Bishop, and 
esteemed members of the committee, I appreciate the opportunity 
to testify before you today to discuss the Air Force's fiscal 
year 2016 military construction, housing, and BRAC requests. 
And I thank you for your support in giving the Air Force much-
needed relief in 2014 and 2015 from untenable sequestration 
levels.
    Without Budget Control Act relief in fiscal year 2016, the 
risk assumed to Air Force infrastructure could have sober 
impacts to mission readiness. The Air Force strives to ensure 
that our airmen have ready installations, resilient 
environmental infrastructure, and reliable energy.
    As of today I have been on the job for 135 days. I have 
visited 10 bases in those 22 weeks, and I have looked at 
hundreds of facilities where our aircraft are maintained, our 
airmen work, and our military families live.
    From these travels I can tell you there is more we can do 
to improve the affordability and viability of our 
installations, which today are simply too big, too old, and too 
expensive. The Air Force has about 30 percent excess 
infrastructure capacity, as Mr. Conger alluded to earlier.
    Our facilities have an average age of 40 years old, many 
much older. In fact, about a quarter are over 50 years old.
    And if you combine excess infrastructure with aging 
buildings, the bottom line is our buildings and our facilities 
are just simply too costly to operate.
    The fiscal year 2016 budget that the Air Force is 
requesting allows us to begin to chip away at the backlog of 
infrastructure recapitalization that has contributed to the 
degradation of our combat readiness.
    Our $1.6 billion fiscal year 2016 MILCON request is more 
than 65 percent higher than last year's budget, and these funds 
really support a three-pillar strategy to MILCON funding: 
first, supporting combatant commanders' requests, and that is 
just about 20, 21 percent of the budget; second, aligning with 
the secretary of the Air Force's key priorities--nuclear, 
space, and cyber, which together account for about 17 percent 
of our MILCON request; and third, balancing MILCON for today's 
readiness with MILCON to bed down our modernized weapon 
systems, at about 26 percent and 16 percent respectively.
    We have also requested about $168 million for dorms and 
other quality of life projects.
    Chairman Dent, Ranking Member Bishop, members of the 
subcommittee, thank you for the opportunity to represent 
America's airmen today, and I ask for your full support of the 
Air Force's fiscal year 2016 request. And I look forward to 
your questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      MILITARY CONSTRUCTION BUDGET

    Mr. Dent. Thank you.
    And it appears that we are not going to have a vote at the 
moment. We thought we were, so that is good news.
    So we will begin our questions, observing our usual 5-
minute rule. So let me just go right to those questions.
    First to Secretary Conger, the DOD fiscal year 2016 budget 
proposes $8.4 billion for military construction and failing 
housing. The request is about $1.9 billion, or almost 29 
percent above the fiscal year 2015 requested level.
    The majority of the increase is in the military 
construction account, specifically $215 million increase in 
Army construction, $650 million in Navy and Marine Corps, and 
$577 million increase in Air Force construction, and $309 
million increase in Defense-Wide construction. Can you explain 
to the committee, you know, how the department determined what 
projects or accounts were to be increased and at what risk to 
other mission-critical requirements?
    Mr. Conger. Sure. I can start that, but the real answer to 
the question is ``it depends,'' and I know that is an unhelpful 
answer. Generally the requirements are generated at the local 
level and prioritized through service commands, and then each 
service has to take a holistic look at its requirements against 
its facilities' requirements and decide what it is going to 
fund.
    In an environment where we had more money to allocate and 
where we had concluded that we were going to be, providing or--
a request with a higher dollar level, we were able to 
accommodate more of those projects. But I think I would defer 
to my colleagues as far as how specific--how their individual, 
specific processes worked.

                        PREVENTATIVE MAINTENANCE

    Mr. Dent. Can I also then--what areas do you see the most 
risk with sequestration still looming and hanging over our 
heads?
    Mr. Conger. So in the facilities environment, my reaction 
would be that facility sustainment is still the place where I 
see the highest risk. We have a model that outlines the 
requirement for how much money we should allocate for 
maintaining our facilities, preventative maintenance, et 
cetera.
    We have an internal policy to try and fund 90 percent of 
that, and we don't with this budget. It funds about 81 percent 
of that requirement--the modeled requirement.
    And frankly, last year, when we were in a BBA-driven budget 
environment, it was much smaller. It was, I think, on the order 
of 70 percent.
    So the problem is is that it is cheaper to do that sort of 
preventative maintenance than it is to repair critical 
problems, and it is cheaper to repair critical problems than it 
is to replace a facility. If you stop funding the preventative 
maintenance at the front, you are going to suck up all that 
money with critical repairs and eventually you are going to 
have to replace the buildings.

                    FACILITIES SUSTAINMENT ACCOUNTS

    Mr. Dent. And can I ask real quickly too, what was the 
driving factor for the increase in military constructing 
funding? And is there a corresponding increase in funding 
within facilities sustainment accounts to maintain these 
existing facilities?
    Mr. Conger. I wouldn't say it is a corresponding increase. 
There is an increase in facility sustainment accounts, but that 
model is based on existing structure, what we have out there 
right now; it is not based on any MILCON.
    Is there a driving factor for the increase in MILCON? I 
don't think there is a single one. I think it is more a matter 
of how individual services prioritize their requirements.
    Mr. Dent. And as it relates to sequester, has the 
department begun any planning or developing a plan B to 
alleviate sequestration or a process to assist this committee, 
if necessary, to make reductions below the fiscal year 2016 
budget levels? I know it is hard, but if you could be as 
specific as you can we would appreciate it.
    Mr. Conger. So in other words, do we have a sequester-level 
budget hidden in the bottom drawer? The answer is no. We 
haven't done such planning; we don't have such a budget to 
provide.

                  BASE REALIGNMENT AND CLOSURES (BRAC)

    Mr. Dent. Okay. And a request to authorize a new round of 
BRAC in 2017 has been requested in the fiscal year 2016 budget 
submission. Prior requests for additional BRAC rounds have been 
unanimously rejected by the Congress. With proposed force 
structure reductions and consolidation of infrastructure, do 
you believe a new round of BRAC is necessary, and what do you 
want us to get out of another BRAC, anyway?
    Mr. Conger. So we look at the next round of BRAC, the one 
that we keep proposing, as an efficiencies-driven BRAC round. 
We see there is clear excess. There was excess after the last 
BRAC round. We have reduced force structure further.
    And in such a budget environment as we have and project for 
the future, we think that it only makes sense to avoid spending 
money on excess. That is the definition of waste. And so 
therefore, we think it is prudent and it is good government to 
do the analysis and identify those savings opportunities.
    Mr. Dent. What do you think those savings are?
    Mr. Conger. Pardon?
    Mr. Dent. What do you think the potential savings are?
    Mr. Conger. So we have done a projection of a reduction of 
about 5 percent of our replacement value--roughly 5 percent of 
our infrastructure. Based on that and based on the execution of 
previous rounds, we project that we will be able to save on the 
order of $2 billion a year recurring from another BRAC round.
    Mr. Dent. Thank you.
    And I see I am over my time by about 20 seconds, so at this 
time I yield to the distinguished Ranking Member, Mr. Bishop.

                     BRAC ROUND--DRAWDOWN OF FORCES

    Mr. Bishop. Thank you very much.
    Secretary Conger, is the budget driving the BRAC round 
request, or is it the drawdown of forces, or is it both of 
them? Given the fact that it appears that the world is even 
more unsafe this year than it was last year, what are we 
dealing with here?
    Are we just trying to live within the fiscal means, or has 
a readiness assessment been done or a requirements assessment 
been done? What is really driving it?
    Mr. Conger. We clearly have excess. We have previous 
studies that demonstrate excess; we have recent studies that 
demonstrate excess.
    We believe we have excess and that it is only responsible 
to request----
    Mr. Bishop. You have excess in terms of the number of 
personnel that you have? You have excess----
    Mr. Conger. We have excess capacity at our bases.
    Mr. Bishop [continuing]. In terms of the requirements that 
the department faces?
    Mr. Conger. We believe we have excess capacity at our 
bases.
    Mr. Bishop. Pardon me?
    Mr. Conger. Excess capacity at our bases. And that points 
to the ability to divest excess infrastructure, and therefore 
to save money.
    Now, you asked if it was budget-driven. I want to be clear: 
During the BRAC process and, frankly, as intrinsic to the BRAC 
process, individual decisions are made based on military value. 
Those decisions, in the end, if we pick the right ones, save 
money.
    The reason that we are asking for a BRAC round ultimately 
is driven by our desire for long-term savings and efficiencies, 
but the individual decisions that we make are going to be 
driven by military evaluations and military value decisions.
    And if I could, the EIC process that we just went through, 
the European Infrastructure Consolidation process, is a great 
example of how this would work, because we used BRAC to test 
drive, essentially, for a lot of staff who hadn't experienced a 
BRAC round before, and we did it in Europe.
    We made a very clear choice not to reduce any operational 
capability, not to make decisions that would reduce our ability 
to deal with a conflict in the region. We were trying to find a 
way to do the same thing for less money, and that is what drove 
those recommendations and that process, and we expect the same 
thing for a BRAC round.

                         SEQUESTRATION IMPACTS

    Mr. Bishop. Starting with the Army, can you highlight, each 
of you, the severe negative consequences of sequestration on 
your service's ability to carry out your construction programs?
    Ms. Hammack. Absolutely, and thank you for the question, 
Mr. Bishop.
    One of the challenges that we have seen with sequestration, 
as Mr. Conger mentioned, is we have not invested in sustaining 
our facilities. And so in the Army the results of not investing 
in sustainment in 2013 and 2014 means that we right now have a 
$3 billion maintenance backlog--over 5,500 major work orders 
for sustaining our facilities.
    And as we have seen our facilities degrade, we have seen a 
9.3 percent increase in restoration and modernization 
requirements. And as he mentioned, as you progress if you can't 
sustain it right then it becomes restoration and modernization. 
And if you don't get after that soon enough the facility 
becomes failing.
    So right now 7 percent of Army facilities are failing, 24 
percent of Army facilities are considered poor. And as we 
continue to underfund sustainment, we increase MILCON 
requirements down the road.
    Mr. Bishop. Mr. McGinn.
    Mr. McGinn. I think any reduction from the President's 
budget request just incurs more risk. An example I can think of 
from last year--you put things off. You put required 
maintenance, as Secretary Hammack pointed out, you put off 
military construction projects that you know you need but you 
have to prioritize the absolutely critical ones.
    So earlier last year we had a sinkhole that suddenly 
appeared in the main runway at Naval Air Station Jacksonville, 
Florida, taking it out of commission. The operational command 
had to do a lot of workarounds.
    The root cause was a leaking sewer pipe that ran under the 
runway. The replacement of that infrastructure and the 
reconstruction of that runway had been on the MILCON list for 
many, many years, but it was put off. We are finally doing it 
this year, of course.
    But that is one example of how a failure to do the 
necessary construction and sustainment readiness and 
maintenance adds more risk, and we can't always predict where 
the power is going to go out, where the water will fail, or 
where there will be a potential for oil to get into the water. 
We just watch those things very, very carefully and we put 
the--we put the money where it is going to do the most good.
    Ms. Ballentine. To put it very simply, sir, BCA would 
require us to make no-win decisions between all necessary 
MILCON and FSRM projects. The Air Force has intentionally 
underfunded mission-critical infrastructure over the last 
several years--things like nuclear infrastructure, space 
infrastructure, and in particular, existing mission 
infrastructure, which the President's Request Budget allows us 
to begin to chip away at that backlog.
    There is nothing that would be immune from being looked at, 
so it just really forces no-win decisions.
    Mr. Bishop. Think my time is up.
    Mr. Fortenberry [presiding]. Thank you Mr. Bishop.
    Our chairman had to leave so I will be a substitute for a 
while. To the issue of BRAC. We are dealing with a 25-year old 
concept, a 25-year old framework and 25-year old language. I 
don't think that it is fair to you or the taxpayers for us to 
sit here and continue to fund excess inventory capacity in 
whatever configuration that is within your various branches.
    We conceived of something called the Base Realignment and 
Closure Commission years ago. Mr. Conger, you had offered the 
opportunity for us to give input.
    Let's change the whole name of this thing to ``Military 
Installations and Savings Commission,'' and that acronym is 
``MISC''. In other words, it implies if there is miscellaneous 
or excess space out there that is consistent with a smart 
decision to improve effectiveness and efficiency, that will 
save you money, that will substitute those monies to military 
readiness and therefore national security, then that becomes a 
much more important statement than just the negative idea of 
various communities competing against one another to stop their 
base from being closed.

                              BASE CLOSURE

    The second component of this is I think we ought to think 
in terms of, rather than ``closure commission,'' are there 
segments of excess military infrastructure that could be looked 
at, whether it is housing, warehouse space, other types of 
office space, that could be eliminated, transitioned to higher 
and better community use, actually be empowering to the 
community that would have been negatively affected before by a 
complete shutdown if for some reason that particular base does 
not make the cut list. In other words, a segmented 
miscellaneous--or a segmented military installation and savings 
commission that looks at various types of excess 
infrastructure.
    This might be a smoother pathway to get us all to where we 
ought to be with increased efficiencies, savings, yet high 
levels of sensitivity to communities who in many times have 
built their livelihood and well-being around military 
installations.
    I think to your earlier comment, that is my comment back to 
you. I would like, if you could, to consider this as a part of 
reframing what is now a 25-year-old concept, but I do think 
needs updating to get us to where we need to be.
    In that regard, let's get back to this question of 
segmentation: 18 percent in the Army, as I understand; 30--up 
to 30 percent in the Air Force. What segments of your capacity 
does that involve?

             AIR FORCE EXCESS PARAMETRIC CAPACITY ANALYSIS

    Ms. Ballentine. So when we updated our capacity analysis 
just this year we used the same process that both GAO and 
Congress had approved in prior years--1998 and 2005. So we 
essentially looked at nine different categories--things like 
parking aprons for different types of aircraft--and assessed at 
a broad scale to what extent are those types of infrastructure 
currently being utilized. And when you aggregate that all up, 
they are currently being utilized at about 70 percent of their 
capacity.
    So does that mean we have 30 percent too many parking 
aprons? No, it doesn't. It means the parking aprons that are 
there are only being utilized to 70 percent of the capacity 
that they could be.
    And that makes a lot of sense if you consider the force 
structure reductions we have seen over time. Just since the 
2005 round of BRAC we have had a 10 percent reduction in both 
personnel and planned aircraft.

                            EXCESS CAPACITY

    And you have probably heard General Welsh, our Chief of 
Staff, talk a lot about the--or sorry, the force structure 
reduction since the early 1990s. When we went into the first 
Gulf War we had between 130 and 140 total force combat coded 
fighter squadrons; we now have between 50 and 60.
    Mr. Fortenberry. I am sorry. I am going to interrupt you 
because the time is so short.
    My question is a little harder in light of the analysis you 
have just provided, because if you have got excess capacity on 
your runways, parking spaces on your runway, that is--might be 
a more difficult transition to some public use, other public 
use in a local community.
    But back to the idea of general uses of office space or 
warehouse space, things like that, that would make for easier 
transitions to other uses or other ownership that saves you 
money but doesn't impact communities, necessarily, so 
deleteriously.
    I will come back to this because I wanted to raise one more 
issue. We have a specific--and by the way, I represent two 
major military installations--Strategic Command as well as 
Offutt Air Force Base, and proud to do so.
    So look, we need to think of this as a partnership as to 
how do we strengthen the opportunities for you to protect 
America, and that is the way I am viewing this. And we will all 
do our own thing in terms of helping position our own 
communities to benefit from this, but nonetheless, that ought 
to be the goal of everyone.

                  LEVY NEAR OFFUTT AIR FORCE BASE, NE

    In this regard, in 2011 there was a very serious flood 
along the Missouri River. The flood levy--the levy that 
protects Offutt Air Force Base held--and Strategic Command--
held. Part of that levy is on the base itself.
    So we have been raising the question, because the capacity 
for the local community to carry the new FEMA requirements for 
upgrades is limited. It is a very big number. So we have talked 
with the Corps of Engineers about this, who says it is the Air 
Force problem; the Air Force problem--Air Force says it is the 
Corps of Engineers'.
    So, Secretary Conger, I am going to kick it up to you so 
you can reconcile the differences between our two friends here.
    Mr. Conger. So believe it or not, we have spent a lot of 
time thinking about levies around Offutt Air Force Base and the 
communication from Congress asking us to think about this 
problem. And the quandary I think we are faced with is trying 
to figure out where the authorities lie to solve the problem.
    Now I am not trying to be cute here, but our lawyers have 
said--noted that this is not a federal levy and therefore we 
don't have the authority to spend money on it. However, the 
gentleman from natural resources district I spoke to before the 
hearing said, ``Oh, it is, and I have the paperwork to prove 
it.''
    So we are going to drill down into the specifics, because 
we have to understand the nature of the structure and who owns 
it and who has the responsibilities and authorities to apply 
funds to that project before we can try and identify those 
solutions. There is clearly some degree of confusion over that 
both in our----
    Mr. Fortenberry. Well, you remember lawyers always start 
with no. That is where they always start.
    Mr. Conger. We have a bunch of wonderful lawyers on our 
staff who will try and help us get to yes.
    Mr. Fortenberry. Okay.
    Mr. Conger. I want to make sure--you know, I have had this 
conditioned into me: obey the law. So we have to figure out the 
right way to----
    Mr. Fortenberry. My comments were not intended to tell you 
to disobey----
    Mr. Conger. No, no, no. I didn't think that.
    But my point is that we have to figure out the nature of 
the problem first, figure out what authorities we can use, and 
if we have to have additional authorities or different 
authorities we need to let you know that because if you would 
like a solution that is not currently within our authorities--
not that we are asking for it--but you probably want to know 
that.
    Mr. Fortenberry. That would be helpful. And then there are 
some other creative solutions that have been floated out there, 
such as enhanced lease usage and things like that that might 
help us get through another pathway.
    Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Really enjoyed the questions in this hearing, and I hope we 
can spend more time on them because this issue is very 
important. It's one that is very difficult to understand.
    We all know that we are downsizing the military, and 
therefore we have excess military property all over the world. 
And yet, you are asking for a 30 percent increase in your 
budget so you can build more.
    And then what you decide not to build with that money 
concerns me because, as you indicated that our first and most 
important role in MILCON is to sustain and modernize--you said 
that, Ms. Hammack, but this end game seems different.
    Well, I have a question for Mr. McGinn, and that is, I 
represent about nine missions or 12 missions of the military 
and among them the big crown jewel is the Naval Postgraduate 
School, which, as you and I have discussed, there is nothing 
like it. It is just unique in the world.

                   NAVAL POSTGRADUATE SCHOOL STAFFING

    It needs a critical mass to be sustained. And it also 
probably needs investment in order to modernize. And that 
investment is not necessarily in building; it is in 
intellectual property.
    For the second year in a row the President's budget request 
for end strength at NPS is 884 full-time-equivalent personnel. 
Op Navy conducted a study last fall that determined the FTE 
should be at 1,200. The school has been executing with end 
strength of 1,100.
    The Navy has validated both the school's mission and its 
research capabilities, so explain to me how the Navy expects 
the school to continue its level of productivity with only an 
end strength of 884.
    Mr. McGinn. Mr. Farr, I would like to take that one for the 
record. I will coordinate with our folks from our budget area 
as well as from our manpower area. That is not my particular 
area of expertise because I do installations, energy, and 
environment.
    However, I just want to----
    Mr. Farr. But you also do what you do inside those 
buildings.
    Mr. McGinn. Right. I want to go on the record saying that 
the Navy Postgraduate School, the Defense Language Institute, 
all of the DOD functions in your district are world-class.

                         ENVIRONMENTAL CLEANUP

    I was out at Monterey before the first of the year, spoke 
with the superintended at the Naval--at the Postgraduate 
School, spoke to local leaders, and it is clear that this is an 
asset that is of great value not just to the Navy and the 
Marine Corps, but to all the services, and indeed, to our 
partners and allies around the world who send some of their 
best and brightest to avail themselves of the kind of education 
you can only get at this unique place.
    But I will, rather than trying to guess at an answer about 
full-time-equivalents, I would like to get back to you in 
writing.
    [The information follows:]

    Navy is still in the process of validating Naval Postgraduate 
School (NPS) FTE requirements. The review includes verification of 
programs, current and future staff, as well as the scope of the NPS 
mission. Once a thorough review is complete, to include balancing 
resourcing and requirements within current fiscal constraints, a final 
decision on NPS FTE will be made.

    Mr. Farr. Well, there is a dispute going on and it is 
essentially in those two departments that you talked about, and 
I would just hope that you will listen to the needs of the 
school rather than the green eyeshades that want to cut back to 
884. It would be a disaster. You are not going to sustain the 
school.
    Mr. McGinn. Right.
    Mr. Farr. On to environmental cleanup. I have watched it 
all. My district experienced the largest military base closure. 
We have tons of cleanup projects. You are cutting that cleanup 
fund every year. I recall that you indicated in last year's 
proposal that you would clean up some more, but then you level 
funded the account this year.
    So how are we going to get some more money into that 
account so that you can actually increase clean up? This is 
what is blocking, I think, a lot of the interest in Congress in 
approving another BRAC, because you end up dumping dirty 
parcels on locals. It is the military's responsibility to clean 
up the dirt and anything under the dirt, and of whoever is 
receiving the land to clean up what is above the dirt.
    In that dirt is all kinds of things, including unexploded 
ordinances. With that in it you cannot use the property. DOD 
has plans to clean up these parcels, but for some of the 
members' districts on this committee it will take 30, 40 years 
to clean them up. You can't transfer property with unexploded 
ordinances on it.
    So how can we boost this agenda up to get--spend more money 
on cleanup and show Congress that, indeed, your request for 
another BRAC round is warranted?
    Ms. Hammack. Thank you. Let me----
    Mr. Farr. Let me ask one more question, because we are all 
going to have to go pretty soon and I guess we are going to 
come back, and that is--well, let me leave that one for now.
    By the way, I want to also thank you for your work in 
transferring Tidball Store. It took the entire Department of 
Defense and all the personnel in it to transfer one acre of 
property to a local government, and it took us what, about 5 or 
6 years to do it?
    You did it, so I thank you for that.
    Ms. Hammack. Okay. Let me answer your environmental 
question.
    You know, one of the things that Congress did is allowed us 
to merge the BRAC cleanup accounts. So last year we obligated 
$443 million in environmental cleanup. This year we are going 
to obligate another $500 million almost in environmental 
cleanup. So we are getting after this, and by merging accounts 
we are able to make significant progress.
    That being said, some of the cleanup is going to take us 
more than 30 years, so when we looked at beyond this FYDP, what 
the cost to clean up is for the entire program, it is something 
around $1.6 billion because some of these cleanups take years 
to monitor the cleanup.
    And so we are going to be able to get after some big chunks 
of it. At Fort Ord in fiscal year 2016 we plan to execute $11 
million, which puts us at the boundaries of the environmental 
restrictions in the local community because we have to do a 
burn first before we get to the cleanup.
    So we are getting after these. One of the great things, 
though, you will note in the 2005 BRAC round is the properties 
we closed under 2005 had much less environmental cleanup than 
the prior BRAC rounds, and that is because the services have 
been cleaning up the bases that we are occupying now so that 
when it comes time to close or when it comes time to transfer 
it to the public for a beneficial reuse, there is going to be 
much less environmental cleanup required because we are 
maintaining them to better environmental standards than we had 
in the past.

                         ENVIRONMENTAL CLEANUP

    Mr. Fortenberry. Gentleman's time is expired.
    We are going to have to recess momentarily, so if you can 
stay with us a while that would be very helpful. The committee 
will resume in a few moments.
    While we are gone, if you could give my question some 
additional consideration in terms of the opportunities--if you 
can think of another word I would welcome it--but to the 
segmentation of the MISC round that is potentially to come, 
whereby you are not looking at pure public goods, like the 
apron of a runway, which is--would be very difficult to 
transition to some other use, but office space, general use 
space that has other community--a community type asset that has 
other applications.
    And then what percent of the excess capacity does that 
potentially represent? It becomes, like I said, a smoother 
pathway, I think, to getting some things done perhaps more 
immediately in the short term rather than these hard or 
difficult questions about things that are only usable by the 
military themselves.
    So we stand in recess.
    [Recess.]
    Mrs. Roby [presiding]. We are now back, and we will call on 
Ms. Lee.
    Ms. Lee. Okay. Well, first of all, let me thank you very 
much, to the chairman and to my ranking member here, for, first 
of all, your kind words in support of condolences. My mother 
passed 2 weeks ago and I wasn't able to attend our first 
hearing. And I really want to thank you all for your love and 
your help and your support. Means a lot.
    My mother actually was a widow of a lieutenant colonel 25 
years in the military. I am a military brat. My dad actually, 
at the end of his life about 3 years ago, instead of calling 
him ``Daddy'' he had me call him ``Colonel.'' [Laughter.]
    And he put his picture up with his uniform and--right over 
his bed. So I share that because I want you to know that, you 
know, veterans and our military are very dear to me. And I was 
raised in Fort Bliss, Texas.
    Also I was married to an Air Force airman. And the 
sacrifices that our service men and women make are dear to my 
heart.
    We owe them a debt of gratitude and I want to do everything 
I can do, from this committee's standpoint, to help them with 
their health care, their economic job opportunities, their 
security, and whatever they need.
    My dad was in two wars. I remember those wars very vividly.
    And also I remember the segregation in the military. Come a 
long way; long way to go.
    So I just want to thank you all for your service.
    And again, to our chair and ranking member, I want to thank 
you. I look forward to this committee.
    When I was in the California legislature--and Congressman 
Farr and I were there together--I actually am very familiar 
with the BRAC process because my former boss was chair of the 
Armed Services Committee, Congressman Ron Dellums, but also he 
chaired MILCON subcommittee when I was on his staff.
    When I went to the legislature--this was in the 1990s--I 
ended up leading the entire state of California's base closure 
and reinvestment efforts. I established the very first state 
planning agency for base conversion, and was part of the 
overall transition of our BRAC initiatives in the 1990s.
    We had in my district five bases that closed, and we are 
still in the process of making sure that we reuse those bases 
in a way that is worthy of, first of all, of the military and 
your mission and what you want to accomplish, as well as our 
surrounding communities.
    In Alameda, for example we are building an outpatient 
clinic for veterans and a V.A. hospital, and we want to make 
sure that the military bases provide unique opportunities for 
V.A. facilities, such as what is taking place in my own 
district.

                           MILITARY HOSPITALS

    And Congressman Farr and I, we were talking about the 
military health facilities and the V.A., so we are looking at 
DOD and V.A. clinics and the feasibility of doing joint 
hospitals and joint clinics. Wouldn't that be cost effective 
and wouldn't that make more sense? And for my own personal 
information and knowledge, why hasn't that been done in the 
past?
    I mean, when Sam talked to me about this I said, ``That 
seems sensible.'' But I would like to hear from you why that 
hasn't been done and if you think that makes sense.
    Mr. Conger. Let me start and then kick it over, because we 
have done that in a couple places.
    Fort Bliss has a joint facility. Joint Base Andrews has a 
joint clinic. And so this is an example where we can work it 
out and where there is a combination of resources and 
facilities and proximity where we do set up the joint 
facilities.
    And if Katherine or Miranda want to talk--or Denny, do 
you----
    Ms. Hammack. The only comment I would like to have is we 
have merged medical facilities together in the military right 
now, so it is all under DOD. So the Army medical facilities are 
managed by office of secretary of defense right now.

                    JOINT DOD-VA MEDICAL FACILITIES

    So in this merging it has helped break down some of the 
barriers between those services so that they truly are joint 
facilities within the medical community. So that is a first 
step that I think is helping pave the way for a future where 
there might be more joint veterans facilities.
    Mr. McGinn. I have got some great Navy memories, 
Congresswoman Lee, of living at 100 San Diego Drive, Naval Air 
Station Alameda. In fact, like a good sailor, I was at sea when 
my wife and daughter experienced the Loma Prieta earthquake. I 
had a lot of explaining to do when I got back home about why I 
wasn't there to help out.
    But it is an absolutely highlight of our BRAC turnover 
process for last year, as you know. We turned over 624 acres to 
the Veterans Administration for cemetery and treatment center 
at former Naval Air Station, and we intend on doing more of 
that as--wherever we can with all of our BRAC properties.
    We also, at Naval Station Great Lakes, just north of 
Chicago, our main naval training center, have a joint V.A. and 
Department of the Navy hospital, and that is an example of 
where it makes sense. It doesn't make sense all the places.
    You have to take a look at the demographics, the mission, 
the load of patients, et cetera, and the type of patients. But 
where it makes sense we--certainly Department of the Navy and 
Department of Defense are open to those types of approaches.
    Ms. Ballentine. You know, not having been through a BRAC 
round myself in the past I don't think I can speak specifically 
to how it has been done or not done. What I would say is that 
my understanding of the BRAC process is it allows us to take a 
comprehensive, Defense-Department-wide look at our installation 
capacity needs and really make smart decisions, just like you 
have laid out, about what makes sense across the board.
    Mrs. Roby. Thank you.
    Well, as you can see, I am not Mr. Fortenberry. I am Martha 
Roby from Alabama, so I am sure that there are others that will 
return, I hope.
    So now it is my turn to ask questions, and I appreciate you 
all being here today. And let me just start by saying that I 
think it is just outright wrong for us to be trying to fix our 
budget woes here in Washington solely on the backs of our 
military, and this is something that I have been saying now for 
the majority of my time in Congress, since the Budget Control 
Act was passed.
    And now we are in a place that I don't think any of us want 
to be. I just wanted to reiterate my position. I think in this 
world right now, with all of the threats that we have, clearly 
we have to make sure that our men and women have everything 
that they need when we send them to the fight.

                             SEQUESTRATION

    And it is not a matter of if; it is just a matter of when. 
I would again, like to make those feelings known.
    Last Monday night, a week ago, we had a real interesting 
night in Fort Rucker, Alabama with its supplemental 
programmatic environmental assessment, and we had 1,600 people 
in Southeast Alabama show up and wanting to voice their 
opinions about what full implementation of the sequester would 
look like and the impact that that would have on Army 
Aviation--the Center for Army Aviation. And it was quite 
extraordinary to hear from our military families and just the 
community about their concerns about the decisions that we are 
making up here.
    I understand when our Army says--or any branch of the 
military says, ``This is the law of the land.'' Well, Congress 
has the ability to change the law, and so we need to be looking 
at all of the ways that we can address what in my opinion is--
and I, you know, say this all the time--is literally what keeps 
me up at night, and I am sure that all of you in this room, 
know that we have to be prepared, and what we are doing with 
sequestration is really damaging that.
    And to what extent we can get it back over time, we should 
be fighting for that every day, but knowing all the while that 
we can't snap our fingers and get it back.
    But with all that said, Secretary Hammack, I just would ask 
you if you would just elaborate a little bit for us about the 
SPEA, and what the Army's timeline is, and how you suspect that 
that information will translate into the decision-making 
process, understanding that all the while Congress has to give 
you the needed flexibility to make those decisions. But in the 
meantime if you could just, for the benefit of those at Fort 
Rucker and all across this country and abroad, let us know what 
the timeline is and what the Army's plans are to do with that 
information?
    Ms. Hammack. Absolutely, and thank you, Representative 
Roby.
    The Army faces an extremely difficult fiscal environment, 
with cuts of $95 billion over a 10-year period. And when we 
look at the Army's budget, 50 percent of our budget is 
manpower. So if there are going to be cuts, it has to come out 
of manpower.
    And you look at the rest of it, it is training and 
equipping, and then the last part is installations. So you 
don't want to have an undertrained or underequipped manpower 
because the risk is a loss of life.
    So when we look at pressure to reduce budgets, it has got 
to come out of manpower. And when we reduce manpower, it is not 
only military but it is the civilian workforce that supports 
them.
    So when we did the supplemental programmatic environmental 
assessment, we did it to assess what the effect of cuts would 
be as if the Army had to shrink down to 420,000 active duty, 
which is where we have to be if sequestration or the Budget 
Control Act stays in place.
    So in taking a look at that, some bases could lose as many 
as 15,000 civilian and military personnel, and those are 
significant cuts. And those are cuts that we have to make in 
response to the Budget Control Act, in response to 
sequestration.
    We are looking at 30 different bases right now that will be 
those that are most impacted, and we are going out and doing 
listening sessions to better understand the impacts to the 
community. Impacts to the community are part of the evaluation. 
Military value is part of the evaluation. We take a look at 
everyone--everything.
    The listening sessions will be complete, I think all of 
them, by the end of this month--by the end of March, and then 
we will be making a decision that we are forwarding to the 
secretary of the chief in the April-May timeframe. We plan to 
make an announcement in June of this year as to where those 
cuts would take place.
    And let me reiterate: These are cuts directly in response 
to the Budget Control Act and sequestration.
    Mrs. Roby. Right. And certainly it was impressive to see 
these communities come out in force to make their case not just 
to the Army but to Congress as well, as to what our 
responsibility collectively is to ensure that we are providing 
for a strong national defense.
    So thank you all for what you are doing as it relates to 
these difficult decisions. And it is my deepest desire that we 
provide some relief in this area, and I can't emphasize that 
enough.
    Ms. Hammack. Thank you.
    Mrs. Roby. Mr. Price.
    Mr. Price. Thank you, Madam Chairman.
    Welcome, to the panel. Sorry for my late arrival. We are 
back and forth from the floor here, and I know you have touched 
on BRAC and other topics of interest, so let me lead one with 
more--that is--lead with one that is more focused on our 
situation at Fort Bragg in North Carolina.
    And I will address this to Assistant Secretary Ballentine. 
I know you are familiar with the ongoing efforts by members of 
the North Carolina congressional delegation on both sides of 
the aisle to ensure that the 440th Airlift Wing at Pope Army 
Airfield isn't activated or moved elsewhere.
    We know that there are obvious strategic benefits of 
maintaining the airlift wing at Pope. We know, of course, too, 
about the substantial impact its presence has on the local 
community.
    But there is also a certain cost here. There is a serious 
concern that tens of millions of dollars were spent to prepare 
the airfield for newer C-130J model aircraft.
    So, you know, you are talking about training benefits, you 
are talking about preparedness benefits, you are talking about 
some investments that have already been made. And my question 
is--I guess I will start with that latter point.
    Does the Army just intend to write these expenses off? Does 
it not make sense to carry through with the original plan, in 
light of the outlays already made?
    And of course, this raises the question about the extent 
to--you know, what is driving this decision? What is driving 
this decision?
    Is it a decision that, without sequestration, without these 
budget pressures, you likely would be making? Or is this a 
budget-driven decision, and are the merits kind of falling by 
the wayside?
    Ms. Ballentine. Thank you, sir. The details of this 
question are a little bit outside of my purview, so I would 
like to take it for the record so I can make sure that I really 
get the answer right for you.
    [The information follows:]

    Pursuant to the language in the fiscal year 2013 National Defense 
Authorization Act, the Air Force conducted an analysis of mobility 
assets to determine the appropriate number of aircraft required to 
fulfill contingency, humanitarian and homeland defense missions. This 
analysis, presented in the Mobility Capabilities Assessment (MCA) study 
determined ``there is no surge scenario associated with the current 
defense strategy--even one in which a significant homeland defense 
event occurs concurrently with two warfights--that requires a fleet of 
358 C-130s.'' The fiscal year 2015 and 2016 President's Budget requests 
deliver a force structure more closely aligned with this finding and 
improves allocation of resources by prioritizing a smaller, modern, and 
more capable force.
    As a result of the findings of the MCA, the Air Force has been 
working to reduce the C-130 fleet in order to provide funding for more 
critical investment areas. The fiscal year 2015 and 2016 reductions 
allow the Total Force to invest in the remaining C-130 force and other 
requirements to counter existing and emerging national security 
threats. The divestment of the 440 Airlift Wing and the Pope Army 
Airfield (AAF) C-130H unit saves the Department of Defense the costs 
associated with maintaining a stand-alone AFRC wing infrastructure at 
Pope AAF, while preserving the personnel necessary to provide support 
for Army training and contingency response.
    The Air Force best meets Army training requirements through the 
Joint Airborne/Air Transportability Training (JA/ATT) Management System 
(JMS). This construct is currently used to fill 66 percent of Ft. Bragg 
missions. The JA/ATT construct--executed via the JMS--also supports 100 
percent of the missions at Fort Benning, Fort Campbell, Joint Base 
Lewis-McChord, and many other Army, U.S. Marine Corps, and U.S. Special 
Operations Command units, whether they have co-located transport 
aircraft or not. The Air Force remains committed to supporting Army 
Airborne training requirements at Pope AAF. In addition, 100 percent of 
current real-world deployment requirements of the XVIII Airborne Corps 
are met through units external to Pope AAF.

    My understanding is that the Air Force does plan to 
continue to support the 82nd Airborne training exercise 
requirements through the joint process, but let me take it for 
the record and get back to you so I can really get you the 
detailed answer that you deserve on this one.

                C-130 BASING AT POPE AIR FORCE BASE, NC

    Mr. Price. All right. We have gone round and round about 
this, and so we are very much in need of those details. And of 
course, we have mandated that this be further examined, further 
studied.
    We need to be sure what we are dealing with here as we go 
forward. So I would appreciate that as promptly as possible.
    So since we didn't take my entire time, let me move to 
Assistant Secretary Hammack, and want to--again--Fort Bragg, 
let's talk about this no-cost installation that you have told 
me about and I would like to have you elaborate on, of a large, 
solar power array. I know projects like that have occurred at 
installations elsewhere in the country, usually in cooperation 
with the local utility and through the long-term provision of 
land easements, and so forth.
    Given the substantial cost savings associated with this and 
other benefits--continuity of power production, reduction in 
the carbon footprint--is this a model that the Army and the 
Department of Defense might in general seek to implement 
elsewhere?

                                 ENERGY

    Ms. Hammack. Yes, it is a model for the Department of 
Defense. And the project you are talking about is in 
conjunction with Duke, and Duke is evaluating and I think they 
are taking it to their public utility commission. It would be 
about a 10-megawatt array.
    Georgia Power, in Georgia, is partnering with us on three 
installations at Fort Benning, Fort Gordon, and Fort Stewart--
30 megawatts each. We are partnering with Tucson Electric Power 
in Fort Huachuca, which is in--south of Tucson in Arizona. I 
just cut the ribbon on an 18-megawatt array there.
    So we are taking this model and working with other 
utilities. Matter of fact, in Alabama we are looking with 
Alabama Power at installations at both Fort Rucker and Anniston 
Army Ammunition Plant.
    So it is a great way for the utility to build a solar or 
wind or renewable power facility on Army land that gives the 
Army energy security but helps stabilize energy costs for the 
utility and the community. So it is a win-win for both, doesn't 
incur additional cost for the military, and helps reduce cost 
for the utility.
    Mr. Price. Well, in general the solar power--provision of 
solar power, the costs have come way down in recent years, so 
it is something that, increasingly I think, all kinds of 
institutions and installations on their own are going to 
determine makes sense--it is cost effective.
    Ms. Hammack. Absolutely.
    Mr. Price. So to the extent this can be successfully 
carried out at Fort Bragg and then become a demonstration for 
wider application, we, of course, are very interested in that 
and want to follow that project.
    Ms. Hammack. Thank you, Representative Price.
    Mr. Price. Thank you.
    Mrs. Roby. Mr. Bishop.
    Mr. Bishop. Thank you very much.
    And let me just add my congratulations to you with the 
Georgia Power project. We are looking forward to breaking 
ground on that next month.

                       REBALANCE THE ASIA PACIFIC

    Let me ask Secretary Conger if you can give us an update on 
the department's efforts to rebalance the Asia Pacific Region 
in terms of facilities, specifically in Guam and Japan. I know 
the landfill permit for the two replacement facilities was 
signed, so what I would like to know is, are we finally going 
to get some movement on the project?
    Mr. Conger. So let me give you a couple points and then I 
will turn to Secretary McGinn for any amplifying comments, 
because a lot of this is Navy and Marine Corps activity that we 
are talking about.
    The supplemental environmental impact statement that is 
going to clear the way for real construction on the island of 
Guam for receiving the Marine Corps folks--the 5,000 Marines 
and the associated family members that are going to be 
transitioned from Okinawa to Guam is going to be completed in 
June, I think it is. It is currently scheduled for June. I 
think that is on track.
    We are entering into a period where we are going to have a 
sustained construction load in Guam on the order of $500 
million a year. That is going to be a combination of U.S. 
appropriations and Japanese money. I think our request for this 
year was $160 million and the rest would be Japanese money for 
this year's project load. That is once the supplemental EIS is 
completed.
    On Okinawa, when we talk about the FRF, the Futenma 
Replacement Facility, the landfill permit has been signed. 
There is work going on at the site. It is also important to 
remember, though, that the only thing that that airfield, that 
landfill, the new airbase that is being built at Camp Schwab, 
the Futenma Replacement Facility--the only thing that is in the 
critical path for is the movement of--the closure of Futenma 
Airbase.
    The remainder of the activities that have to do with Guam 
are not in--that is not in the critical path. We can proceed 
with those activities and we are not waiting for the 
construction at Camp Schwab to complete for us to be able to do 
the rest of what we want to do.

                         ASIA-PACIFIC REBALANCE

    Denny, did you want to----
    Mr. McGinn. Mr. Conger has given a good summary of where we 
are. The supplemental environmental impact statement for Guam 
as well as the Commonwealth of the Northern Mariana Islands 
will be completed in the spring.
    We expect that first Marine units will be arriving in 2021. 
In this budget we have $126 million to begin the construction 
of some live-fire training ranges in the northwest part of 
Guam, and we really appreciate the actions of the committee and 
the Congress last year in enabling the commencement of military 
construction projects that will start this process that Mr. 
Conger outlined.
    Bottom line, Mr. Bishop, is that we feel we are on track 
for this reallocation of forces from Okinawa to Guam, and we 
will continue to keep you apprised of the progress as we go 
forward.
    Mr. Bishop. Yes, I was going to follow up with a question 
to you, because last year I asked you about a plan--showing 
what was needed on the construction side for the new South 
Pacific strategy, and you didn't have one. And so I was going 
to ask you if there is one now and if you could give us an idea 
of what types of projects that we would see in the Pacific in 
the future and how lower budgets will affect investment in that 
area.
    Mr. McGinn. The majority of projects are on, in fact, Guam. 
We have agreed with--since the last hearing last year--with our 
colleagues in the Air Force that we are going to put the Marine 
housing at--co-located with Andersen Air Force Base. It makes a 
lot of sense for both services and for the mission of both the 
Air Force and the Marines that will be there in Guam commencing 
in about 5 years.
    So the rest of the construction projects relate to 
utilities and relate to the support for the live-fire training 
and the cantonment area for combat vehicles and combat support 
vehicles for the Marines that are relocating there. We are also 
in close consultation with Air Force on what we want to do 
about divert fields, primarily in the area of Tinian and Saipan 
in the Commonwealth of Northern Mariana Islands, and we have 
several projects not in work but in the planning stages and the 
budgeting stages for those.
    Mr. Bishop. Thank you. Mr. McGinn, do you have anything you 
want to add?
    Ms. Ballentine. I think Mr. McGinn covered it quite well.
    I would say that for fiscal year 2016 the Air Force has, I 
think, let's see, $85.2 million in the budget for the shift to 
Asia Pacific, so we have got five projects, several related to 
hardening of facilities at Guam, and we are working very 
closely with the Navy and Marines on a number of projects over 
there.

                                  BRAC

    Mr. Fortenberry [presiding]. Thank you, Mr. Bishop.
    I would like to return to some of my earlier comments and 
round out the discussion to speak about in your next round of 
MISC installation analysis, have you considered consolidating 
Guard--National Guard and Reserve components?
    Ms. Hammack. Yes, sir. We have considered that and that is 
something that would be a key component.
    When we talked to the National Guard, if you look at the 
last BRAC round, the National Guard did a lot of consolidation 
in that. They consolidated, out of 300-some facilities--211 
National Guard and 175 Reserve--into 125 armed forces reserve 
centers. And if you look at the National Guard and the way 
demographics are shifting, some of the encroachment upon their 
facilities, some of their facilities are not sized for future 
plans.
    So they just completed a readiness center transformation 
master plan, per guidance from NDAA 2011, and in that 15-year 
plan they identified the potential for a 22 percent reduction, 
but it would require MILCON and R&M to invest in those 
locations that they would be consolidating into. So the 
National Guard is fully onboard with a future round of military 
installation savings consolidation.
    When you asked earlier about what segments of 
infrastructure are excess, when we looked at both our capacity 
analysis and even in some of the previous rounds of BRAC, you 
look at categories like training ranges, or housing and 
barracks, medical, logistics, administration space, and you 
identify what categories are excess, and then you put together 
scenarios on what to do with that excess.
    Mr. Fortenberry. Let me interrupt you for a second. But do 
those all start to become a part of an aggregated case for the 
complete realignment of an entire facility, or can they be 
peeled off as individual segments of excess use, excess 
capacity, and sold, transitioned to other higher uses?
    Ms. Hammack. All of the above.
    Mr. Fortenberry. Okay.
    Ms. Hammack. So when you look at the scenarios, there are 
many different cases to be made. Some bases--matter of fact, 
one in upstate New York, Watervliet, they shrunk by 50 percent. 
They moved a fence line; the other 50 percent is now an office 
park.
    Mr. Fortenberry. Okay. Then do they get credit, let's say, 
for actually having gone ahead and reduced their footprint, 
which might make them more vulnerable to an entire base closure 
round? You following the logic there?
    Ms. Hammack. I follow your logic, but what is remaining at 
that particular location is critical, high military value 
operations. So we really look at the military value.
    Mr. Fortenberry. As long as you give an incentive for 
people to do that, yes. The other point that--here is a good 
example. In Nebraska the National Guard has consolidated at 
joint force headquarters with state police and emergency 
personnel----
    Ms. Hammack. Yes.
    Mr. Fortenberry [continuing]. For operations. Works 
seamlessly. Works perfectly.
    Congressman Farr and I were having a very fruitful 
conversation after our last round of questions about the new 
authorities that you do have to actually outsource--might not 
be the right word--to actually collaborate with community 
public services--fire, police, maintenance--that is another 
consideration beyond the limitations of hard infrastructure, 
but goes to the heart of the question as to how do we make you 
more effective, efficient, protect the communities that are 
integral to your various missions, but also transition space or 
services that could be better--that can meet the objective of 
the proper needs of the military.
    Ms. Hammack. Absolutely. And we are doing much of that now. 
We are calling it intergovernmental support agreements, where 
you are partnering with the local city, the county, or the 
state.
    Mr. Fortenberry. And that is new authority?
    Ms. Hammack. It is new authority that was clarified----
    Mr. Fortenberry. So how widespread is this now?

                         PARTNERING COMMUNITIES

    Ms. Hammack. Well, the----
    Mr. Fortenberry. It is new.
    Ms. Hammack. It is new, and it was clarified last year 
because there were challenges in the acquisition community in 
that the legislation that was passed was conflicting with the 
federal acquisition regulations. So we needed clarifying 
language, which came in last year's NDAA, that helps the 
acquisition profession ensure that we are in alignment with 
legal intent.
    And so we are now marching out with those new orders and 
putting together templates to guide our bases on how to best 
partner with communities.
    Mr. Fortenberry. Well, Congressman Farr has said that 
Monterey has jumped to the forefront of the line and provided 
exactly that, an example, a template, as I understand it.
    Ms. Hammack. They were our first model, but that is one of 
the few installations that is completely surrounded by the 
community in which they reside. Many of our Army installations 
are located out in a very rural area because we are a little 
bit noisy in our activities. The school activities at Presidio 
Monterey are those that are much more conducive to co-location 
in a community.
    Mr. Fortenberry. One other quick comment before we 
adjourn--I will turn to Ms. Lee next--but I accept your answer 
earlier on the issue, the complex issue of the levy on the 
Offutt Air Force Base, and I assume you will get back to us 
quickly once you sort through the various legal authorities you 
have or don't have. Is that fine?
    Mr. Conger. Absolutely. This is something we have been 
wrestling--we have, I think Congressman Ashford wrote in about 
it as well, and so we have been wrestling with this for----
    Mr. Fortenberry. It is all of our neighborhood.
    Mr. Conger. Yes.
    Mr. Fortenberry. And that would be very helpful if we could 
expedite that, because again, the imposition on the community 
is very substantial--basically a very heavy lift, and yet, 
there is a direct federal necessity and benefit here because 
the levy is actually on the base. So----
    Mr. Conger. Yes.
    Mr. Fortenberry [continuing]. You will work through that.
    And thank you, Madam Secretary, for your input on that, as 
well.
    Ms. Lee.
    Ms. Lee. Thank you.
    Let me ask Assistant Secretary Ballentine this question 
with regard to the installation of these energy efficient 
buildings that we are building. And I am going to ask 
throughout the course of these hearings this question over and 
over and over again as it relates to the inclusion of women-
owned businesses and minority-owned contractors, and diverse 
hiring for the installation of these LEED-certified buildings 
for solar panels and for weatherization and all the renewable 
technology that is very, very important.

                          MINORITY CONTRACTING

    Well, again, I referenced working for Congressman Dellums 
earlier. Well, as a staffer I actually staffed the first 
minority and women-owned business inclusion amendment for DOD, 
and also for the Army, Air Force, Navy, and what have you.
    And I wanted to ask you, as it relates to minority and 
women-owned contractors, just on the energy efficiency, the 
LEED buildings now, how are you tracking this? Are you making 
an effort to find minority and women-owned businesses?
    And for all of the services, how is that being handled? Now 
that I am on this committee I really want to stay on top of 
that and make sure that diversity is part of everything that we 
do in all of the services.
    Ms. Ballentine. Yes, ma'am. Thank you. Let me get back to 
you on the specific details on how we build diversity into our 
contracting programs, particularly on energy and LEED 
certification and other sustainability aspects of facilities.
    Anecdotally what I can tell you, in the 22 weeks I have 
been on the job I have been astounded at how front and center 
diversity topics are in every leadership conversation that we 
have had. It is clearly one of the secretary's top priorities 
and it is in every leadership conversation.
    So let me get back to you with some more specific detail on 
the contracting piece, but this is something that I have been 
really impressed with in the short time that I have been with 
the Air Force.
    [The information follows:]

    The Air Force does very well in the small business market of 
construction services which includes these types of energy efficient 
buildings. Small businesses are awarded over 92 percent of all 
construction contracts in the last two fiscal years. Within the 
construction market for small businesses, Small Disadvantaged 
Businesses (SDB) receive approximately 48 percent, Women Owned Small 
Businesses (WOSB) and Service Disabled Veterans Owned Businesses 
(SDVOB) each receive a little over 16.7 percent and HUBZones 
categorized businesses receive approximately 20.9 percent of the total 
``Construction of Structures/Facilities'' market. The one caveat when 
looking at the percentages of small businesses is that the businesses 
self-identify and can identify in one category or several. For example, 
a WOSB can also classify itself as a SDB and SDVOB.

    Ms. Lee. And I guess for the Army, Navy, Air Force, is 
there--do you have any reports or do you track contracts as it 
relates to minority and women-owned business participation? And 
also, I have legislation as it relates to veterans, in terms of 
giving tax credits for companies that hire veterans in 
renewable energy efforts, and I wanted to make sure that you 
knew that because whether my bill passes or not, I am going to 
try to see if I can work it from the inside to make sure that 
companies do understand that it is in their best interests and 
in our veterans' best interest to hire veterans on these 
renewable technology projects.
    Ms. Hammack. Absolutely. And thank you for your focus in 
this area. It is very important.
    When the Army contracts for LEED buildings and all of our 
construction is done through the Army Corps of Engineers, and 
the Army Corps of Engineers has exceeded the minimum levels 
established by Congress for minority, women-owned, and veterans 
contracting every year. I don't have the exact number so I can 
get back to you with the exact number, but it is something that 
is tracked, it is something that is a high priority that we are 
looking at both in our prime contractors and in our 
subcontractors.
    [The information follows:]

    Yes. The Army tracks awards to America's small businesses; and 
identifies various socioeconomic factors for awards, to include women-
owned small businesses and small disadvantaged businesses which are at 
least 51 percent owned by economically or socially disadvantaged 
individuals.
    <bullet> In FY14, the Army exceeded DoD's annual goal of small 
business awards by 5.2 percent.
    <bullet> 31.63 percent of all Army contracting actions, valued at 
more than $19B were awarded to America's small businesses.
    <bullet> The Army Senior Procurement Executive is briefed quarterly 
on the status of small business participation in Army contract awards.
    A snapshot of the Army's FY14 contracting awards to Small 
Businesses is below:

------------------------------------------------------------------------
                                                 Small Business Contract
                   Categories                            Dollars
------------------------------------------------------------------------
Women-Owned....................................           $3,368,878,616
Service Disabled Veteran-Owned.................            2,466,244,485
Small Disadvantaged............................            9,169,154,290
Other Socio-Economic Categories*...............            4,172,029,775
                                                ------------------------
    FY14 TOTALS................................           19,176,307,166
------------------------------------------------------------------------
Source: Federal Procurement Data System--Next Generation, (FPDS-NG)
  January 7, 2015
* Other Socio-Economic Categories includes approximately 20 additional
  programs identified in FPDS-NG


            +SMALL BUSINESS & WOMEN-OWNED BUSINESS CONTRACT

    So Army Corps of Engineers is doing a fantastic job in 
making that a priority.
    Mr. McGinn. We have a very detailed analytical process by 
which we track awards, and basically it works well. We are very 
closely aligned with the Small Business Administration, for 
example, in this regard, using similar standards.
    We partner with large groups like the National Defense 
Industrial Association to put out the word about how you do 
business as a small, minority-owned business.
    On the point about veterans and renewable energy, on the 
13th of February at Camp Pendleton we had the first graduating 
class of a program that was a partnership from the Department 
of Labor, Department of Energy, and the Department of Defense 
to train solar installation technicians, people who are in this 
case the Marine Corps, decided to go into civilian pursuits, 
and it was participated in by the five top solar installation 
companies in the country, designing the curriculum as well as 
conducting the training and selecting those candidates. There 
is a similar program that is going on in the Army and another 
in the Air Force and Navy.
    The first cadre is 200 folks who will soon become veterans, 
highly trained and vetted by the solar installations. One 
example of many of these programs.
    Ms. Lee. Good. I think that is very important because we 
may want to use that as a model or prototype for what my 
legislation is trying to get to, because I want the companies 
also to benefit by getting--I don't know if they do on the 
model you talked about, the project you talked about--a tax 
credit or some kind of a tax benefit for that.
    Finally, Mr. Chairman, let me just ask if whatever reports 
you have, whatever data you have on your diversity in 
contracting as it relates to minority and women-owned 
businesses and veteran and disabled-owned businesses, could you 
present that to this committee? I would like to review that and 
I would like it disaggregated, if you can, by race in the 
contracting portion.
    Thank you. Thank you very much.
    Thank you, Mr. Chair.
    [Clerk's note: The Department of Defense provided the 
following data in response.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Fortenberry. Right. Let me--good ideas from a long time 
ago. They get implemented, they get constituencies built around 
it, they get installations built around it, and it is a 
rhetorical framework, also, that gets built around it, but we 
don't have to carry that forward, especially in this area, 
because BRAC implies a lot of negative things. And what you are 
actually talking about are concepts that are very constructive 
and positive for an effective fighting military to keep this 
country safe.
    I think we have a responsibility to taxpayers to try to 
save money any way we can, make you more effective, but also 
protect the communities who, again, are integral and essential 
to your efforts. There is a way to accomplish all of this, and 
by reframing--starting, perhaps, with the language, we can turn 
what is--has been a terribly difficult process into one that 
makes a lot of sense and could perhaps be embraced by the 
nation.
    So I can make a copy of this for you all if you----
    Mr. Conger. I wrote it down already.
    Mr. Fortenberry. You wrote it down. You got it. Okay.
    Members are advised that our next hearing is March 4th at 
9:30 a.m. in H140 of the U.S. Capitol with the Secretary of 
Veterans Affairs.
    We are adjourned.
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
  
</pre></body></html>
